TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improvements Are Needed to Ensure the
                     Health Coverage Tax Credit Is Properly
                            Claimed on Tax Returns



                                      September 24, 2009

                              Reference Number: 2009-40-137




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 24, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Improvements Are Needed to Ensure the Health
                                 Coverage Tax Credit Is Properly Claimed on Tax Returns
                                 (Audit # 200940011)

 This report presents the results of our review of the Internal Revenue Service (IRS) processing of
 the Health Coverage Tax Credit (HCTC). The overall objective of this review was to assess the
 effectiveness of the process used by the IRS to determine whether individuals are eligible to
 receive the HCTC. This audit was conducted as part of our Fiscal Year 2009 Annual Audit Plan
 under the major management challenge of Providing Quality Taxpayer Service Operations and
 Taxpayer Protection and Rights.

 Impact on the Taxpayer
 The HCTC is a provision of the Trade Adjustment Assistance Reform Act of 2002.1 It was
 created to cover a substantial portion of the cost of health care for workers who lost their jobs
 due to foreign trade and who receive benefits through the Trade Adjustment Assistance or
 Alternative Trade Adjustment Assistance programs as well as eligible recipients of pensions that
 are being paid by the Pension Benefit Guaranty Corporation. In Tax Year 2007, there were
 approximately 26,800 participants. The IRS has implemented a number of processes in an
 attempt to ensure eligible individuals accurately claim the HCTC. However, improvements are
 needed to ensure individuals claiming the HCTC on their annual tax return accurately compute
 the credit. The IRS needs to implement a process to identify inaccurate HCTC claims at the time
 a tax return is filed to prevent erroneous refunds from being issued.




 1
     Pub. L. No. 107-210, 116 Stat. 933.
                    Improvements Are Needed to Ensure the Health Coverage Tax
                            Credit Is Properly Claimed on Tax Returns




Synopsis
The IRS administers the HCTC in partnership with other Federal agencies, States, and the private
health care industry. State workforce agencies, through the Department of Labor, and the
Pension Benefit Guaranty Corporation are responsible for identifying potentially eligible
individuals. The IRS is responsible for ensuring that potentially eligible individuals meet
program requirements2 and ensuring the accuracy of the credit being claimed.
The IRS has implemented a number of processes in an attempt to ensure eligible individuals
accurately claim the HCTC. In addition, we determined that the advance monthly process
ensures individuals met requirements prior to participation and that the credit is being accurately
calculated. This is significant because the majority of individuals claiming the HCTC and the
majority of the funds paid ($80 million of the $100 million) for Tax Year 2007 were paid as an
advance monthly credit.
However, improvements are needed to ensure individuals claiming the HCTC on their annual tax
returns accurately compute the credit. Claiming the HCTC via the filing of a tax return presents
the highest risk for errors because the credit is being determined by the taxpayer as opposed to
the IRS, which computes the amount for claimants participating in the advance monthly payment
option. Our statistically valid sample of 82 tax returns for individuals who claimed the HCTC on
their 2006 tax return identified that 59 (72 percent) did not have the required documentation
attached.
Further, processes are not effective to identify and prevent individuals from erroneously claiming
the HCTC on their tax returns. Our review identified 1,260 individuals who appear to have
                                        erroneously claimed on their annual Tax Year 2007 tax
                                        returns about $1.8 million in HCTC advance monthly
      Our review identified 1,260       payments. These individuals erroneously claimed on their
    individuals who appear to have      tax returns the amount of advance monthly payments the
   erroneously claimed $1.8 million     IRS paid on their behalf. However, the IRS has developed
               in HCTCs.                successful post-processing criteria and has the data to
                                        identify erroneous HCTC claims at the time a tax return is
                                        filed. The IRS needs to move identification from post
examination to upfront processing to prevent erroneous HCTC claims at the time a tax return is
filed. The IRS identifying erroneous HCTC claims could result in funds put to better use of
more than $9 million over 5 years. Developing such a process will improve the effectiveness of
the HCTC Program as it continues to expand.

2
 The IRS must verify the potentially eligible individual is a recipient of benefits from the Trade Adjustment
Assistance program, the Alternative Trade Adjustment Assistance program, or the Pension Benefit Guaranty
Corporation; cannot receive Medicare (is not age 65 or older); is not in prison; cannot be claimed as a dependent on
someone’s return; and has a qualified health plan.
                                                                                                                   2
                 Improvements Are Needed to Ensure the Health Coverage Tax
                         Credit Is Properly Claimed on Tax Returns




Recommendations
We recommended that the Commissioner, Wage and Investment Division, develop a process to
ensure that taxpayers who claim the HCTC on electronically filed (e-filed) tax returns and
paper-filed tax returns are providing the required documentation in support of their HCTC claim
and, if not, the credit should be disallowed as indicated on the Health Coverage Tax Credit
(Form 8885). In addition, a process should be developed to identify erroneous HCTC claims
based on the criteria used to select taxpayers for examination and reject e-filed tax returns or
forward paper-filed tax returns to the Error Resolution function at the time the tax return is filed.

Response
IRS management agreed with two of our recommendations and agreed with the premise of our
third recommendation. The IRS has an e-file project underway to improve the HCTC process in
the future and will reject tax returns if the U.S. Individual Income Tax Transmittal for an IRS
e-file Return (Form 8453) is not attached. Until then, the IRS will continue requesting that
taxpayers file a Form 8453 with the required documentation attached. Also, the IRS will provide
reminders to employees in the Error Resolution function regarding the necessity of taxpayers
attaching documentation to a return claiming the HCTC and, if the documentation is not
attached, the IRS will disallow the credit. In addition, the IRS agreed with the premise of our
third recommendation but proposed an alternative corrective action. Specifically, the IRS will
identify potentially erroneous claims during processing, program additional error codes, inform
taxpayers of their appeal rights, and request that taxpayers provide documentation to prove their
claims. We agree that the IRS’ proposed alternative corrective action will satisfy the intent of
our recommendation.
While IRS management acknowledges that the test used to develop our outcome measure is
sound for the purposes of identifying potentially erroneous claims, management does not agree
that the methodology can be translated to an estimated erroneous claim amounts over the next
5 years as presented in Appendix IV. We believe that our outcome is valid because we applied
the IRS’ post-processing criteria to identify erroneous claims and their examinations resulted in
changes to the amount of the HCTC claimed in 98.5 percent of the cases examined.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                    3
                       Improvements Are Needed to Ensure the Health Coverage Tax
                               Credit Is Properly Claimed on Tax Returns




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service’s Process Ensures Individuals
          Participating in the Advance Monthly Health Coverage Tax
          Credit Program Meet Eligibility Requirements ............................................Page 6
          Improvements Are Needed to Ensure Individuals Accurately Claim
          the Health Coverage Tax Credit on Their Tax Returns ................................Page 7
                    Recommendations 1 through 3:.........................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measure ................................................................Page 18
          Appendix V – Health Coverage Tax Credit (Form 8885) ............................Page 19
          Appendix VI – Management’s Response to the Draft Report ......................Page 20
               Improvements Are Needed to Ensure the Health Coverage Tax
                       Credit Is Properly Claimed on Tax Returns




                              Abbreviations

e-file(d); e-filing    Electronically file(d); electronic filing
HCTC                   Health Coverage Tax Credit
IRS                    Internal Revenue Service
PBGC                   Pension Benefit Guaranty Corporation
                    Improvements Are Needed to Ensure the Health Coverage Tax
                            Credit Is Properly Claimed on Tax Returns




                                              Background

The Health Coverage Tax Credit (HCTC) was signed into law on August 6, 2002, as a
component of the Trade Adjustment Assistance Reform Act of 2002.1 The intent of the HCTC is
to make health coverage more affordable for certain
groups of people who otherwise might not be insured.
The HCTC is a refundable tax credit2 that now pays              The HCTC is designed to make
80 percent of the qualified health insurance premiums          health  coverage more affordable
for eligible individuals and their qualified family            for certain groups of people who
                                                                otherwise might not be insured.
members. The amount increased from 65 percent to
80 percent under the American Recovery and
Reinvestment Act of 2009.3 The HCTC was created to
assist certain workers who lost their jobs due to foreign trade and who receive benefits through
the Trade Adjustment Assistance or Alternative Trade Adjustment Assistance programs as well
as eligible recipients of pensions that are being paid by the Pension Benefit Guaranty
Corporation (PBGC).4
The Internal Revenue Service (IRS) administers the HCTC in partnership with other Federal
agencies, States, and the private health care industry. State workforce agencies, through the
Department of Labor, and the PBGC are responsible for identifying potentially eligible
individuals. These agencies transmit records of potentially eligible individuals to the IRS. States
provide daily transmissions and the PBGC provides monthly transmissions. The IRS created the
HCTC Program Office to oversee the administration of the HCTC. The IRS is responsible for
ensuring that potentially eligible individuals meet program requirements5 and ensuring the
accuracy of the credit being claimed.
The HCTC is unique because it is the first time a Federal tax credit is being used to help people
who are affected by foreign trade or whose pension plans were taken over by the PBGC afford
health insurance coverage. The HCTC can be obtained in the following ways:


1
  Pub. L. No. 107-210, 116 Stat. 933.
2
  Refundable tax credit means the taxpayer can receive a refund even if they did not owe any taxes or earn any
income.
3
  Pub. L. No. 111-5, 123 Stat. 115.
4
  When an employer cannot continue paying pensions to its retirees, the PBGC may be requested to take over the
responsibility of paying pension benefits to its retirees.
5
  The IRS must verify the potentially eligible individual is a recipient of benefits from the Trade Adjustment
Assistance program, the Alternative Trade Adjustment Assistance program, or the PBGC; cannot receive Medicare
(is not age 65 or older); is not in prison; cannot be claimed as a dependent on someone’s return; and has a qualified
health plan.
                                                                                                              Page 1
                    Improvements Are Needed to Ensure the Health Coverage Tax
                            Credit Is Properly Claimed on Tax Returns



    •   Annually - Individuals can claim the credit on their annual Federal tax return by
        preparing and including a Health Coverage Tax Credit (Form 8885).6 For Tax
        Year7 2008, the amount an eligible individual can claim is 65 percent of the total amount
        of premiums they paid directly to their health plan.
    •   Advance Monthly - Individuals can submit an application to the IRS requesting
        enrollment in the advance monthly credit option. The IRS ensures the individual meets
        program requirements including being under age 65 and enrolled in a qualified health
        plan. Up until May 1, 2009, this option assisted individuals by paying 65 percent of their
        monthly premiums. On a monthly basis, the individual was responsible for paying the
        remaining 35 percent of the premium to the IRS; the IRS paid the remaining 65 percent
        and electronically transmitted the full premium payment directly to the health plan
        administrator. Individuals participating in this option should not claim the HCTC on
        their tax returns as they are receiving the credit as an advance payment. Taxpayers
        receive a Health Coverage Tax Credit (HCTC) Advance Payments (Form 1099-H) that
        details the total amount of the HCTC the IRS paid during the year.
    •   Combination - Some individuals claim the credit using a combination of claiming the
        credit on their annually filed tax return and also receiving the advance monthly credit.
        For example, individuals would claim 65 percent of the amount they paid in premiums on
        their annual tax return for the months they had to pay the premium directly to the health
        plan provider while waiting to become registered in the advance monthly HCTC.
Figure 1 shows the number of individuals and the reimbursement options used during Tax
Years 2004 through 2007.
                        Figure 1: Number of HCTC Participants by Type

                                                                 Participants
                         Tax Year
                                                Advance
                                                               Annually         Combination
                                                Monthly
                            2004                 12,235          8,180              6,700
                            2005                 14,971          5,776              7,069
                            2006                 16,302          5,090              6,077
                          2007              15,761          4,958              6,116
                                                                              8
               Source: IRS HCTC Program Office and IRS Individual Master File.


6
  See Appendix V for an example of Form 8885.
7
  The year in which tax returns and other tax data are processed.
8
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                            Page 2
                  Improvements Are Needed to Ensure the Health Coverage Tax
                          Credit Is Properly Claimed on Tax Returns



It should be noted that the percentage of eligible individuals that actually participate in the
HCTC Program is extremely low. For example, in Tax Year 2007, of the 355,952 individuals
that the States and the PBGC identified as potentially eligible, only 26,835 (8 percent)
participated (received the HCTC credit). Figure 2 shows the number of potentially eligible
individuals versus actual participants for Tax Years 2005 through 2007.
               Figure 2: Potentially Eligible Versus Actual Participants
                                         Potentially                     Percentage
                      Tax Year            Eligible      Participating    Participating
                        2005              348,545           27,816            8%
                        2006              362,488           27,469            8%
                       2007               355,952           26,835            8%
               Source: IRS Individual Master File.

The American Recovery and Reinvestment Act of 2009 includes a provision requiring the
Secretary of the Treasury to conduct a biennial survey of non-HCTC participants. The survey
will gather demographic information, inquire as to whether the individual is aware of the HCTC,
determine the reason an individual has not enrolled in the program, and inquire as to whether the
individual has other coverage. We plan to include a review of the performance of the survey and
reporting of results in our Fiscal Year 2010 Annual Audit Plan.

A prior Treasury Inspector General for Tax Administration review recommended
improvements to ensure accurate processing of the HCTC
A prior Treasury Inspector General for Tax Administration review of the HCTC Program
identified processing improvements that were needed.9 We recommended that the IRS add a line
specifically for the HCTC on the U.S. Individual Income Tax Return (Form 1040) and transcribe
information from the paper-filed Form 8885 so that the credit could be identified during initial
return processing, allowing systemic computer checks to be performed to reduce the potential for
manual input errors or erroneous HCTC claims. Additional recommendations included
implementing prerefund systemic validity and compliance checks which would prevent
erroneous credits from being issued. IRS management agreed to implement pre and post-refund
validity and compliance checks for Tax Years 2004 and 2005. These validity and compliance
checks included:
    •   Prerefund check - a code will be placed on accounts claiming the HCTC more than a
        certain dollar amount requiring an IRS employee to review the claim before allowing the
        credit.


9
 The Health Coverage Tax Credit Was Accurately Processed During the 2004 Filing Season (Reference
Number 2005-40-017, dated December 10, 2004).
                                                                                                    Page 3
                Improvements Are Needed to Ensure the Health Coverage Tax
                        Credit Is Properly Claimed on Tax Returns



   •   Post-refund check - taxpayers claiming more than a certain dollar amount will
       automatically be routed for examination.
This review was performed at the HCTC Project Office in Washington, D.C., and at the HCTC
Customer Contact Center in Waterloo, Iowa, during the period November 2008 through
June 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                      Improvements Are Needed to Ensure the Health Coverage Tax
                              Credit Is Properly Claimed on Tax Returns




                                         Results of Review

The IRS has implemented a number of processes in an attempt to ensure eligible individuals
accurately claim the HCTC. These processes ensure:
       •   Eligibility records (based on reporting from State workforce agencies or the PBGC) that
           are identified as invalid are transmitted back to the reporting agency to resolve the error
           condition. This can happen when records contain
           data fields with incomplete data or data that are
           not compatible with the HCTC system.                          Processes have been
                                                                            implemented in an attempt to
       •   Individuals who received the HCTC had an                         ensure eligible individuals are
           eligibility indicator from the States or the PBGC                accurately claiming the HCTC.
           on their IRS accounts.
       •   Individuals identified as potentially eligible are
           sent a Health Coverage Tax Credit Program Kit and Monthly HCTC Registration Form.
           This package outlines the requirements to be met to claim the HCTC as well as the
           necessary documentation to be provided to qualify for participation in the advance
           monthly HCTC.
       •   Individuals claiming the HCTC on their tax returns without attaching a Form 8885 will
           have their electronically filed (e-filed) tax returns rejected or paper-filed tax returns sent
           to the Error Resolution function for correspondence with the taxpayer.
       •   Individuals claiming the HCTC who are age 65 or older10 will have their e-filed tax
           returns or paper-filed tax returns sent to the Error Resolution function where the claim is
           disallowed.
In addition, we determined that the advance monthly process ensures individuals met
requirements prior to participation and that the credit is being accurately calculated. This is
significant because the majority of individuals claiming the HCTC and the majority of the funds
paid out ($80 million of the $100 million) for Tax Year 2007 were paid out as an advanced
monthly credit. However, improvements are needed to ensure individuals claiming the HCTC
on their annual tax returns accurately compute the credit being claimed.




10
     Individuals are eligible for Medicare at age 65, making them ineligible for the HCTC.
                                                                                                         Page 5
                 Improvements Are Needed to Ensure the Health Coverage Tax
                         Credit Is Properly Claimed on Tax Returns



The Internal Revenue Service’s Process Ensures Individuals
Participating in the Advance Monthly Health Coverage Tax Credit
Program Meet Eligibility Requirements
The IRS has established an effective process to ensure individuals participating in the advance
monthly HCTC meet eligibility requirements. We reviewed a judgmental sample of 50
completed applications for the advance monthly HCTC and determined that the required
documentation supporting the eligibility requirements was provided for each of the cases. In
addition, we reviewed a judgmental sample of 24 completed registration packages in which
individuals were denied participation in the monthly HCTC. Our review confirmed that HCTC
customer service representatives correctly denied participation to these individuals. Denials
resulted from the individuals not having a qualified health plan, not providing required
information, and/or not completing the registration form. The HCTC customer service
representatives work extensively with individuals to get them registered for the monthly HCTC.
Although some of these individuals may not qualify for the advance monthly credit, they could
still claim the credit on their Forms 1040.
An individual who wants to participate in the advance monthly payment option is required to
complete and return the Monthly HCTC Registration Form. An HCTC customer service
representative ensures required documentation is provided supporting the individual’s eligibility.
Specifically, representatives verify that an individual:
                                                       •   Is not eligible to receive Medicare
                                                           benefits (generally cannot be age 65
                                                           or older).
                                                       •   Is not in prison.
                                                       •   Cannot be claimed as a dependent on
                                                           someone else’s Federal tax return.
                                                       •   Has a qualified health plan.
                                                       •   Provided copies of health insurance
                                                           documents showing policy data,
                                                           premium amounts, and health plan
                                                           provider identification.
                                                       If additional information is needed, the
                                                       representative will correspond or contact
                                                       the individual to explain what is needed.
                                                       Once the individual is registered, the
                                                       HCTC Program will issue the individual
                                                       an invoice each month for 35 percent of
                                                                                           Page 6
                       Improvements Are Needed to Ensure the Health Coverage Tax
                               Credit Is Properly Claimed on Tax Returns



the monthly premium to be paid to the IRS. Once the taxpayer portion of the payment is
received by the IRS, the IRS will include the remaining 65 percent and electronically transmit
the full premium payment directly to the health plan administrator. Figure 3 shows the total
amounts paid for the monthly and annual programs.
                     Figure 3: HCTC Credits Paid by Reimbursement Option
                                         (in millions)
                                                        Monthly Payments
                                                      Taxpayer           IRS         Annual Filing
                              Tax Year
                                 2004                  $31.2 M        $57.5 M             $25.3
                                 2005                  $40.3 M        $70.2 M             $19.8
                                 2006                  $45.4 M        $79.0 M             $20.8
                             2007                 $46.0 M        $80.3 M                  $20.7
                  Source: HCTC Program Office and IRS Individual Master File.

Improvements Are Needed to Ensure Individuals Accurately Claim the
Health Coverage Tax Credit on Their Tax Returns
Taxpayers who claim the HCTC on their tax returns present the highest risk for errors. This is
because the credit is being determined by the taxpayer as opposed to the IRS, which computes
the amount for claimants participating in the advance monthly payment option.

Taxpayers often did not attach the required documentation to their tax returns
Our statistically valid sample of 82 tax returns for
individuals who claimed the HCTC on their 2006 tax
                                                              Our review of 82 tax returns
returns identified that 59 (72 percent) did not have the     identified that 59 (72 percent)
required documentation attached. We project that                 did not have required
8,04011 (72 percent) of the 11,167 tax returns with         documentation attached to the
claims totaling $14.9 million did not have the required                tax return.
documentation attached to the tax return. Below is the
breakdown of the 59 returns that either had no documentation or were missing documentation:
       •   37 did not have any of the required documentation attached to the tax return.
       •   13 did not have the required proof of payment attached to the tax return.
       •   9 did not have required health insurance documentation attached to the tax return.


11
     This is 72 percent of the 11,167 participants who filed an annual return in Tax Year 2006.
                                                                                                     Page 7
                 Improvements Are Needed to Ensure the Health Coverage Tax
                         Credit Is Properly Claimed on Tax Returns



Instructions for the Form 8885 state that individuals claiming the credit on their annual tax return
are required to complete the Form 8885 and attach the following documentation:
   •   Health insurance bills supporting the amount billed for the months being claimed.
   •   Proof of payment (cancelled checks, bank or credit card statements) supporting the
       amounts paid by the taxpayer during the year.
In some instances, the IRS requires taxpayers to provide documentation in support of items listed
on their tax returns. Individuals who file a paper tax return attach the documentation to their tax
return. However, individuals who e-file are required to attach the documentation to a U.S.
Individual Income Tax Transmittal for an IRS e-file Return (Form 8453) or U.S. Individual
Income Tax Declaration for an IRS e-file Online Return (Form 8453-OL). A contributing factor
to taxpayers not including required documentation is that the IRS incorrectly allowed taxpayers
who claimed the HCTC to electronically sign e-filed tax returns. E-file procedures state that if
taxpayers are required to attach documents to their tax returns, such as the requirement for
claiming the HCTC, they are not eligible to electronically sign their tax return with a
self-selected Personal Identification Number. However, our review identified that, of the
5,605 Tax Year 2007 e-filed tax returns with a claim for the HCTC, 4,196 (75 percent) were
incorrectly allowed to electronically sign their tax return.
In Processing Year 2009, the IRS mandated that for all e-filed tax returns, the taxpayers must
electronically sign their e-filed tax returns. This mandate includes those individuals required to
attach documents to their tax return. Individuals such as HCTC claimants will be required to
continue to attach documentation in support of the HCTC claim to Forms 8453.
Although the IRS requires supporting documentation or it will disallow the credit, its guidelines
do not specify how the IRS should use this information to validate the accuracy of the HCTC
claims. In addition, despite the IRS’ assertion that the credit will be disallowed, a majority of
taxpayers in our sample received the HCTC without having to provide the required information.
Figure 4 shows the caution statement included on the Form 8885.
                     Figure 4: Caution Statement on the Form 8885




               Source: Form 8885.




                                                                                             Page 8
                 Improvements Are Needed to Ensure the Health Coverage Tax
                         Credit Is Properly Claimed on Tax Returns



Processes do not effectively prevent erroneous duplicate HCTC claims from
individuals who receive advance monthly payments
The IRS has developed post-processing criteria to identify erroneous duplicate HCTC claims.
Using the IRS’ post-processing criteria, we identified 1,260 taxpayers that may have erroneously
claimed the HCTC totaling about $1.8 million on their
2007 tax returns. Erroneous claims resulted from
taxpayers incorrectly claiming on their tax returns the          Our review identified 1,260
amount of advance monthly payments the IRS paid. The          individuals who appear to have
IRS uses three scenarios to identify taxpayers                      erroneously claimed
                                                                approximately $1.8 million in
erroneously claiming the HCTC. For these three                    HCTC in Tax Year 2007.
scenarios, the taxpayers incorrectly claim a percent of
the amount of premiums paid by the IRS through the
advance monthly option. Taxpayers participating in the advance monthly option should not
claim the HCTC on their tax returns because they are receiving the credit as an advance
payment.
The IRS developed scenarios used to select tax returns for examination. However, limited
resources resulted in the examination of only 500 tax returns selected according to the criteria.
                                              Examinations resulted in changes to the amount of
                                              the HCTC claimed in 98.5 percent of the cases
     Although the IRS’ criteria for selecting
                                              examined. Unfortunately, the IRS has not
        tax returns with a HCTC claim for
    examination resulted in a change to the   continued to identify and examine taxpayers
     HCTC in 98.5 percent of the cases, the   erroneously claiming the HCTC. The IRS
   IRS has not continued identification and   indicated that it is very time consuming for the
        examination of these tax returns.     Examination function to perform these reviews.
                                            The HCTC Project Office also completed a
Compliance Review in September 2008, which showed the demographic information on HCTC
cases examined for possible erroneous payments for 2006 and 2007. This review identified
compliance problems dealing with insufficient documentation and taxpayers receiving duplicate
claims.
Figure 5 shows the number of taxpayers and the potential amounts of HCTCs erroneously
claimed on their annual tax returns that were previously paid to the health plan providers by the
IRS through the advance monthly program.




                                                                                            Page 9
                 Improvements Are Needed to Ensure the Health Coverage Tax
                         Credit Is Properly Claimed on Tax Returns



            Figure 5: Potential Erroneous HCTC Claims for Tax Year 2007

                                                Number of
                       Scenario                 Taxpayers            Amount of the HCTC
                           1                          80                  $   87,516
                           2                         700                  $1,051,284
                           3                         480                  $ 664,812
                         Total                     1,260                  $1,803,612
             Source: IRS Return Processing Individual Master File.

For the cases identified in Figure 5, the taxpayers received the HCTC through participation in the
advance monthly method; however, they erroneously claimed the credit again for the same
months when filing their annual tax return. Taxpayers can claim only those payments made to
their health plan provider for the months that they did not receive any payments from the IRS.
The IRS has the data to identify erroneous HCTC claims at the time a tax return is filed. For
example, at the end of each tax year, the IRS prepares and sends a Health Coverage Tax Credit
Advance Payments (Form 1099-H) (see Figure 6) to each individual that participated in the
monthly HCTC Program. This form notifies program participants of the total amount that the
IRS has paid to the health plan provider on their behalf. The IRS can use the information from
the Form 1099-H to identify individuals who may be erroneously claiming the credit when filing
their annual tax returns for the same months in which they participated in the monthly HCTC
Program. This could result in funds put to better use totaling a potential $9 million over 5 years.
Developing such a process will improve the effectiveness of the Program as it continues to
expand.
 Figure 6: Health Coverage Tax Credit (HCTC) Advance Payments (Form 1099-H)




       Source: IRS Forms and Publications.

In February 2009, the President signed into law the American Recovery and Reinvestment Act of
2009 which made several amendments to the HCTC. These amendments will further expand the

                                                                                           Page 10
                 Improvements Are Needed to Ensure the Health Coverage Tax
                         Credit Is Properly Claimed on Tax Returns



number of individuals potentially eligible for the credit, extend the length of time some
participants remain eligible for the credit, and increase the amount the IRS pays for the credit.
Some of these amendments include:
   •   Increasing the percentage the IRS will pay from 65 percent to 80 percent.
   •   Providing payments for monthly premiums paid prior to the commencement of the
       advance payments.
   •   Expanding the eligibility to Trade Adjustment Assistance recipients not enrolled in
       training programs.
   •   Continuing the eligibility for family members after certain events, such as Medicare
       eligibility, or death of or divorce from the HCTC participant.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to ensure taxpayers who claim the HCTC on e-filed
tax returns are providing the required documentation in support of their HCTC claim and, if not,
the credit should be disallowed as indicated on the Form 8885.
       Management’s Response: IRS management agreed with our recommendation. The
       IRS will continue requesting that taxpayers file a Form 8453 with the required
       documentation attached. The IRS has an e-file project underway to improve this process
       in the future. Modernized e-file will allow taxpayers or tax preparers to attach the
       Form 8885 and other required documentation to their e-filed tax returns beginning with
       Filing Season 2013 and will reject the return if the form is not attached.
Recommendation 2: Ensure taxpayers claiming the HCTC on paper-filed tax returns attach
required documentation and, if not, the IRS should disallow the credit as indicated on the
Form 8885.
       Management’s Response: IRS management agreed with our recommendation. The
       IRS will provide reminders to employees in the Error Resolution function regarding the
       necessity of attaching documentation to a return claiming the HCTC. If the
       documentation is not attached, the IRS will disallow the credit. The IRS will also
       continue allowing taxpayers the ability to provide the correct documentation to support
       their claim. If the taxpayers fail to do so in response to a request for documentation, the
       IRS will disallow the credit.
Recommendation 3: Develop processes to identify erroneous HCTC claims based on criteria
used to select taxpayers for examination and reject e-filed tax returns or forward paper-filed tax
returns to the Error Resolution function at the time the tax return is filed.

                                                                                            Page 11
         Improvements Are Needed to Ensure the Health Coverage Tax
                 Credit Is Properly Claimed on Tax Returns



Management’s Response: IRS management agreed with the premise of this
recommendation. The IRS will identify potentially erroneous claims during processing
and allow taxpayers an opportunity to provide the required documentation to prove their
claim. The IRS will program additional error codes and the thresholds reflective of the
tests outlined in this report, inform taxpayers of their appeal rights, and request that
taxpayers provide documentation to prove their claims. In addition, while IRS
management acknowledges that the test used to develop our outcome measure is sound
for the purposes of identifying potentially erroneous claims, management does not agree
that the methodology can be translated to an estimated erroneous claim amounts over the
next 5 years as presented in Appendix IV.
Office Audit Comment: We agree that the IRS’ proposed alternative corrective action
to identify erroneous claims will satisfy the intent of our recommendation. We also
believe that our outcome is valid because we applied the IRS’ post-processing criteria to
identify erroneous claims and their examinations resulted in changes to the amount of the
HCTC claimed in 98.5 percent of the cases examined.




                                                                                 Page 12
                  Improvements Are Needed to Ensure the Health Coverage Tax
                          Credit Is Properly Claimed on Tax Returns



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the effectiveness of the process used by the IRS to determine
whether individuals are eligible to receive the HCTC. To accomplish our objective, we:
I.      Evaluated actions taken in response to a prior Treasury Inspector General for Tax
        Administration review.1
        A. Determined whether the IRS pursued adding a line on the U.S. Individual Income Tax
           Return (Form 1040) for the HCTC.
        B. Determined whether the IRS implemented systemic validity and compliance checks
           to verify that taxpayers claimed the correct credit amount on their Health Coverage
           Tax Credit (Form 8885).
        C. Evaluated whether IRS procedures have been updated to include instructions to
           properly process cases after the credit claimed on the Form 1040/Form 8885 is
           disallowed.
II.     Assessed the effectiveness of the IRS process to resolve rejects resulting from
        transmission of files from the States and the PBGC containing potentially eligible
        individuals.
        A. Identified the system used to transmit the eligibility data and obtained systems
           availability records to identify how often the system is unavailable, and if there is a
           backup plan for transmitting data when the system is unavailable.
        B. Reviewed reject reports to identify the approximate number of reject occurrences to
           determine the volume of individuals potentially affected.
        C. Determined whether procedures were established for correcting records rejected
           during the transmission of potentially eligible individuals and identified the types of
           errors that cause reject conditions.
III.    Assessed the filtering process used by the HCTC Program to ensure it accurately
        identified eligible individuals contained in the files sent from the States and the PBGC.
        A. Identified the criteria used by the HCTC Program to automatically eliminate certain
           records from the transmission of potentially eligible individuals.


1
 The Health Coverage Tax Credit Was Accurately Processed During the 2004 Filing Season (Reference
Number 2005-40-017, dated December 10, 2004).
                                                                                                    Page 13
               Improvements Are Needed to Ensure the Health Coverage Tax
                       Credit Is Properly Claimed on Tax Returns




      B. Analyzed the file of individuals eliminated during the filtering process to verify the
         reasons they were eliminated and determined whether the removal was supported.
      C. Determined whether the HCTC Program notified the individuals eliminated by the
         filtering process that they were not eligible for the HCTC.
IV.   Assessed the effectiveness of the process to ensure individuals are identified and notified
      of their eligibility.
      A. Evaluated the process for adding the eligibility indicator to the individuals’ accounts
         on the HCTC system.
      B. Identified how the HCTC Fulfillment Center is notified to mail the HCTC Program
         Kits, what information is provided, and how the system is updated to show a Kit was
         sent.
      C. Determined the impact if individuals do not receive the HCTC Program Kit and
         identify other methods that can be used to notify individuals of their eligibility.
      D. Evaluated the potential reasons more individuals are not participating in the HCTC
         Program.
V.    Evaluated the procedures used by the HCTC Program to perform the End of Month
      Eligibility Reviews and determined whether the HCTC system is properly updated to
      reflect the correct eligibility.
VI.   Assessed the process used to verify individuals registering for the Advance Monthly
      Credit method met all of the required eligibility criteria (age, cannot be claimed as
      someone’s dependent, is not imprisoned, and has a qualified health plan).
      A. Selected a judgmental sample of 50 completed applications declared “eligible” by the
         HCTC Program and evaluated the registration form and attached documentation to
         verify that the proper decision was made by the HCTC Program. These cases were
         selected from an IRS Individual Master File extract of 28,801 taxpayers that claimed
         the HCTC for Tax Year 2006. We used a judgmental sample to verify that the proper
         decision was made based on the attached documentation.
      B. Selected a judgmental sample of 24 completed applications declared “not eligible” for
         the HCTC and evaluated the registration and attached documentation to verify that
         the proper decision was made by the HCTC Program. These cases were selected
         from a population of 2,884 applications declared “not eligible” for HCTC in Fiscal
         Year 2008. We used a judgmental sample to verify that the proper decision was made
         based on the information contained in the case files.
      C. Evaluated the procedures for denying eligibility for the HCTC and whether these
         individuals can appeal the decision.

                                                                                          Page 14
                    Improvements Are Needed to Ensure the Health Coverage Tax
                            Credit Is Properly Claimed on Tax Returns



VII.    Assessed the effectiveness of IRS processes to ensure individuals claiming the HCTC on
        their annual Federal tax return met required eligibility criteria.
        A. Identified procedures to ensure the individuals claiming the HCTC when filing either
           a paper tax return or electronic tax return are eligible.
        B. Selected a statistically valid sample of 200 HCTC accounts that included 82 annual
           filers (electronic and paper) from an IRS Individual Master File extract of
           28,801 taxpayers that claimed the HCTC for Tax Year 2006. We validated the
           extract by comparing the sampled records to the taxpayer’s tax returns. We
           determined whether the individuals attached the required Form 8885, provided proof
           of a qualified health plan, provided proof of payments made, met age requirements,
           cannot be claimed as someone’s dependent, and were not imprisoned. We used a
           statistical sample because we wanted to project the number of cases with errors. We
           used attribute sampling to calculate the minimum sample size (n),2 which we rounded
           to 200:
              n = (Z2 p(1-p))/(A2)
              Z = Confidence Level:            95 percent (expressed as 1.96 standard deviation)
              p = Expected Rate of Occurrence: 2 percent
              A = Precision Rate:              ±2 percent
VIII.   Assessed the effectiveness of updating the Master File3 with the eligibility indicators and
        evaluated the process of inputting the eligibility indicator and determined whether the
        Master File accurately reflected the correct status.




2                   2          2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing - The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 15
                Improvements Are Needed to Ensure the Health Coverage Tax
                        Credit Is Properly Claimed on Tax Returns



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Denise M. Gladson, Senior Auditor
Sharla Robinson, Senior Auditor
Stephen Elix, Auditor
Jonathan Lloyd, Auditor
Marcus D. Sloan, Auditor
Martha Stewart, Information Technology Specialist




                                                                                    Page 16
                Improvements Are Needed to Ensure the Health Coverage Tax
                        Credit Is Properly Claimed on Tax Returns



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE:W
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Program Manager, Health Coverage Tax Credit, Wage and Investment Division SE:W:HCTC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 17
                    Improvements Are Needed to Ensure the Health Coverage Tax
                            Credit Is Properly Claimed on Tax Returns



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $9 million associated with 6,300 taxpayers who may
    erroneously claim the HCTC over the next 5 years (see page 7).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers incorrectly receiving the HCTC twice in a tax year, we
obtained an IRS Individual Master File1 extract for Tax Year 2007 containing all HCTC
participants. We eliminated nonrelevant accounts in order to analyze only cases where the
taxpayer participated in both the monthly and annual HCTC Programs. Because individuals
suspected of claiming the credit twice follow three distinct patterns, we used three separate math
tests (originally developed by the HCTC Program Office) to obtain the population of individuals
incorrectly claiming the credit twice. The three math tests identify amounts claimed on the
Health Coverage Tax Credit (Form 8885) that equal a percent of IRS payments made during the
advance monthly HCTC.
These math tests resulted in 1,260 cases containing approximately $1.8 million in potentially
erroneous refunds and credits issued by the IRS in Tax Year 2007. Based on these results, we
estimate that over the next 5 years, 6,300 HCTC participants (1,260 x 5 years) will receive more
than $9 million ($1.8 million x 5 years) from the IRS as a result of erroneous HCTC claims.




1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 18
  Improvements Are Needed to Ensure the Health Coverage Tax
          Credit Is Properly Claimed on Tax Returns



                                                 Appendix V

Health Coverage Tax Credit (Form 8885)




                                                       Page 19
    Improvements Are Needed to Ensure the Health Coverage Tax
            Credit Is Properly Claimed on Tax Returns



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 20
Improvements Are Needed to Ensure the Health Coverage Tax
        Credit Is Properly Claimed on Tax Returns




                                                     Page 21
Improvements Are Needed to Ensure the Health Coverage Tax
        Credit Is Properly Claimed on Tax Returns




                                                     Page 22
Improvements Are Needed to Ensure the Health Coverage Tax
        Credit Is Properly Claimed on Tax Returns




                                                     Page 23
